Washington, D.C. 20530

December 8, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Zimmian Tabb v. United States of America,
S.Ct. No. 20-579

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on October 28, 2020. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on December 16, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 15, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0579
TABB, ZIMMIAN
USA

JOHN PATRICK ELWOOD
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-942-5992
JOHN.ELWOOD@ARNOLDPORTER.COM

